OFFICE OF INSPECTOR GENERAL
 DEPARTMENT OF VETERANS AFFAIRS

   SEMIANNUAL REPORT TO CONGRESS
  APRIL 1, 2006 - SEPTEMBER 30, 2006
                                 Message from the Inspector General



This Semiannual Report to Congress focuses on the Ofﬁce of Inspector General’s
(OIG) accomplishments for the period of April 1, 2006, through September 30,
2006. Issued in accordance with the Inspector General Act of 1978, as amended,
it presents results based on OIG strategic goals, which cover the areas of health
care delivery, beneﬁts processing, ﬁnancial management, procurement practices,
and information management.
During this reporting period, OIG issued 114 reports on VA programs and
operations. We recommended systemic improvements and efﬁciencies in quality
of care, accuracy of beneﬁts, budget processes, improved information technology
security, and economy in procurement. OIG audits, investigations, and other
reviews identiﬁed over $723.8 million in monetary beneﬁts, for a return of $19
for every dollar expended on OIG oversight. Our criminal investigators closed
652 investigations and made 333 arrests. OIG investigative work also resulted in
540 administrative sanctions.
OIG also issued a summary report to provide information on 296 Combined
Assessment Program (CAP) facility review reports. The summary report provides information on
recurring and systemic issues identiﬁed during OIG CAP reviews from January 1999 to August 2006,
including issues that impact patient care; beneﬁts administration; and ﬁnancial, management, and
administrative controls. OIG is changing its approach for performing CAP reviews. OIG’s Ofﬁce
of Audit (OA) participation in CAP reviews will end to concentrate on performing national audits.
However, OA will continue to review the systemic issues reported in CAP reviews. OIG’s Ofﬁce of
Healthcare Inspections will continue to perform cyclical CAP reviews, and the Ofﬁce of Investigations
will provide fraud and integrity training for VA employees at VA health care facilities nationwide.
In another area, the Ofﬁce of Contract Review collaborates with VA’s Ofﬁce of Acquisition and Materiel
Management on preaward and postaward reviews speciﬁcally designed to improve VA’s procurement
process. Those efforts resulted in savings and dollar recoveries of $26.9 million.
Of particular note this reporting period was the residential theft and recovery of a VA employee’s
personally-owned laptop computer and external hard drive containing sensitive and personal
information for approximately 26 million veterans and military personnel. This has been characterized
as the single largest data breach in the history of the Federal government. In response to this theft,
we conducted a joint criminal investigation with the Federal Bureau of Investigation (FBI) and the
Montgomery County, Maryland, Police Department, which resulted in the recovery of the computer
and external hard drive and the apprehension of two individuals charged with the theft. Following
the recovery, an FBI computer forensics analysis determined that there was no evidence that VA
data had been compromised as a result of the theft. Concurrently, OIG conducted an administrative
investigation and review to address several critical issues related to VA information security, including:
(1) the circumstances surrounding the employee’s access to the sensitive data stored on his personal
laptop computer; (2) the sequence of events within VA once ofﬁcials learned of the theft; (3) the
existing VA-wide policies and procedures; and (4) whether VA had sufﬁciently addressed long-standing
information security weaknesses previously reported by OIG.
As a result of OIG’s oversight activities in connection with this incident, VA ofﬁcials initiated a broad
review and revision of departmental security directives, and implemented an intense all-employee
training program focusing on security awareness and the protection of Privacy Act data. This issue
was also the focus of several congressional hearings.
We appreciate the support we receive from VA’s Secretary, Deputy Secretary, and senior management.
We will continue to partner with them and Congress to maximize VA’s effectiveness in providing
beneﬁts to our Nation’s veterans.




GEORGE J. OPFER
Inspector General
                                           TABLE OF CONTENTS


Message from the Inspector General .................................................................................... 1


Statistical Highlights ............................................................................................................ 3


VA and OIG Mission, Organization, and Resources ............................................................... 4


Health Care Delivery............................................................................................................. 5


Beneﬁts Processing .............................................................................................................. 9


Financial Management........................................................................................................ 12


Procurement Practices ....................................................................................................... 14


Information Management................................................................................................... 17


Appendix A - Reviews By OIG Staff .................................................................................... 19


Appendix B - Status of OIG Reports Unimplemented For Over 1 Year................................. 25 


Appendix C - Inspector General Act Reporting Requirements ............................................. 28

April 1, 2006 – September 30, 2006                                                              VA Ofﬁce of Inspector General



                                            Statistical Highlights

The following statistical data highlights OIG activities and accomplishments during the April 1, 2006,
through September 30, 2006, reporting period. Fiscal year (FY) 2006 ﬁgures appear on the right.

                                                                                           Reporting Period            FY 2006
DOLLAR IMPACT ($$$ in Millions)
       Better Use of Funds ....................................................................... $526.6                   $549.5
       Fines, Penalties, Restitutions, and Civil Judgments ............................... $44.9                             $48.4
       Fugitive Felon Program .................................................................. $122.2                     $242.9
       Savings and Cost Avoidance ............................................................ $26.9                         $53.0
       Questioned Costs .................................................................................$0                    $.9
       OIG Dollar Recoveries ........................................................................ $3.2                    $5.6
       Contract Review Savings and Dollar Recoveries ................................... $26.9                              $118.3
RETURN ON INVESTMENT
       Dollar   Impact   ($723.8)/Cost of OIG Operations ($38.8) .........................19:1
       Dollar   Impact   ($900.3)/Cost of OIG Operations ($72.5) ...............................                             12:1
       Dollar   Impact   ($26.9)/Cost of Ofﬁce of Contract Review Operations ($1.6) 17:1
       Dollar   Impact   ($118.3)/Cost of Ofﬁce of Contract Review Operations ($3.1) ....                                    38:1
OTHER IMPACT
       Arrests1 ............................................................................................ 333              712
       Indictments ....................................................................................... 157                344
       Criminal Complaints ........................................................................... 118                    214
       Convictions ....................................................................................... 166                316
       Pretrial Diversions ................................................................................13                  36
       Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data ...........64                                         141
       Administrative Sanctions ..................................................................... 540                     833
ACTIVITIES
Reports Issued
     CAP Reviews........................................................................................31                        64
     Joint Review ......................................................................................... 1                      2
     Audits.................................................................................................. 7                   31
     Healthcare Inspections ..........................................................................24                          45
     Administrative Investigations .................................................................. 6                            8
     Contract Reviews .................................................................................45                         85
Investigative Cases
     Opened............................................................................................. 646                 1,296
     Closed .............................................................................................. 652               1,167
Healthcare Inspections Activities
      Clinical Consultations ............................................................................. 0                      3
Hotline Activities
       Contacts ...................................................................................... 10,344               17,808
       Cases Opened.................................................................................... 630                  1,181
       Cases Closed ..................................................................................... 605                1,160



   1
       Includes the apprehension of 113 and 216 fugitive felons by OIG, respectively, for this period and
       FY 2006.




                                                                                                   Statistical Highlights     •    3
Semiannual Report to Congress                          April 1, 2006 – September 30, 2006


                     VA and OIG Mission, Organization,
                              and Resources

    The Department of Veterans Affairs
    The Department’s mission is to serve America’s veterans and their families with dignity
    and compassion and to be their principal advocate in ensuring that they receive the care,
    support, and recognition earned in service to the Nation. VA’s motto comes from Abraham
    Lincoln’s second inaugural address, given March 4, 1865, “to care for him who shall have
    borne the battle and for his widow and his orphan.”
    While most Americans recognize VA as a Government agency, few realize that it is the
    second largest Federal employer. For FY 2006, VA had a $73 billion budget and almost
    223,000 employees serving an estimated 24.4 million living veterans. To serve the
    Nation’s veterans, VA maintains facilities in every state, the District of Columbia, the
    Commonwealth of Puerto Rico, Guam, and the Philippines.
    The VA has three administrations that serve veterans:
        • Veterans Health Administration (VHA) provides health care.
        • Veterans Beneﬁts Administration (VBA) provides income and readjustment beneﬁts.
        • National Cemetery Administration (NCA) provides interment and memorial beneﬁts.
    For more information, please visit VA’s Internet home page at www.va.gov.

    VA Ofﬁce of Inspector General
    OIG was administratively established on January 1, 1978, to consolidate audits and
    investigations into a cohesive, independent organization. In October 1978, Public Law
    95-452, the Inspector General Act, was enacted, establishing a statutory Inspector
    General (IG) in VA. The IG Act states that the IG is responsible for: (1) conducting and
    supervising audits and investigations; (2) recommending policies designed to promote
    economy and efﬁciency in the administration of, and to prevent and detect criminal activity,
    waste, abuse, and mismanagement in VA programs and operations; and (3) keeping the
    Secretary and Congress fully informed about problems and deﬁciencies in VA programs and
    operations and the need for corrective action. The IG has authority to inquire into all VA
    programs and activities as well as the related activities of persons or parties performing
    under grants, contracts, or other agreements. Inherent in every OIG effort are the
    principles of quality management and a desire to improve the way VA operates by helping
    it become more customer-driven and results-oriented.
    OIG, with 485 allocated employees, is organized into three line elements: the Ofﬁces
    of Investigations, Audit, and Healthcare Inspections, plus a contract review ofﬁce and
    a support element. FY 2006 funding for OIG operations provided $72.5 million from
    appropriations. The contract review ofﬁce received $3.1 million through a reimbursable
    agreement with VA for contract review services to perform preaward and postaward
    contract reviews and other pricing reviews of Federal Supply Schedule (FSS) contracts.
    In addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located in 23 cities
    throughout the country.
    OIG keeps the Secretary and Congress fully and currently informed about issues affecting
    VA programs and the opportunities for improvement. In doing so, OIG staff strives to be
    leaders and innovators, and to perform their duties fairly, honestly, and with the highest
    professional integrity. For more information, please visit OIG’s Internet home page at
    www.va.gov/oig.




4   •     VA and OIG Mission, Organization, and Resources
    April 1, 2006 – September 30, 2006                                 VA Ofﬁce of Inspector General



                              Health Care Delivery
The health care that VHA provides veterans, including those recently returned from
Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF), is consistently ranked
among the best in the Nation. OIG oversight helps VHA maintain a fully functional quality
management program that ensures high-quality patient care and safety, and safeguards
against the occurrence of adverse events.

OFFICE OF HEALTHCARE INSPECTIONS
OIG’s Ofﬁce of Healthcare Inspections (OHI) focused on quality of care issues in VHA and
assessed VHA services in response to veterans and active duty service personnel returning
from Afghanistan and Iraq. OHI published 29 cyclical CAP reviews to evaluate quality of
care issues in VHA medical facilities, 21 hotline reports, and the 3 national reviews.

Traumatic Brain Injury Rehabilitation Needs Improvement
This review addressed the care of individuals who served in OEF/OIF and suffered a
traumatic brain injury (TBI) either during their service in Southwest Asia or subsequent to
such service while on active duty. The purpose of the review was to describe the status
of these individuals following inpatient rehabilitation and to explore the functioning of
VHA’s network of care in support of them. OHI concluded that the 52 patients interviewed
continued to suffer some degree of cognitive and behavioral impairment approximately
16 months after injury. VA TBI patients had very similar outcomes compared with
a matched group of non-VA patients. Long-term case management efforts need
improvement, and families need additional support in the care of TBI patients.
The Under Secretary for Health concurred with OHI’s ﬁndings and took corrective actions,
which included improving case management for veterans with complex and multiple
injuries, including TBI, and revising VA’s 2002 memorandum of agreement (MOA) with
the Department of Defense (DoD) regarding referral of active duty military personnel who
sustain spinal cord injury, TBI, or blindness to VA’s medical facilities for health care and
rehabilitative services. The MOA provides a comprehensive summary of the coordinated
policy and procedures that ensure TBI patients receive the necessary continuing care
regardless of their active duty status and amends the billing/reimbursement charges
for services rendered. The revised MOA took effect in October 2006. VA will continue
to stress the need for family support and to support families within the bounds of its
authority. VA also developed VHA’s Handbook 1172.1 that identiﬁes the processes to
facilitate referral and transfer of clinical care of patients with TBI for rehabilitation. (Health
Status of and Services for Operation Enduring Freedom/Operation Iraqi Freedom Veterans
after Traumatic Brain Injury Rehabilitation)

Veterans’ Access to PTSD Treatment Needs Improvement
Inspectors reviewed allegations that a VHA facility denied eligible veterans access to post-
traumatic stress disorder (PTSD) treatment. The purpose of this review was to determine
the validity of allegations that: (1) the facility denied access to PTSD treatment to eligible
patients if the patients were unable or unwilling to participate in research protocols,
abusing substances, medically or psychiatrically unstable, or not of the appropriate age
group; and (2) patients who were deemed unsuitable for the PTSD program had to opt for
treatment at a VA Vet Center as a default.
OHI did not substantiate the allegation that patients were denied access to the
PTSD program. However, OHI did substantiate that patients who were medically or
psychiatrically unstable were excluded from the program, which is consistent with
appropriate standards of care. OHI concluded that patients were not denied access to the
PTSD program based on their willingness to participate in research protocols or their age.
Also, OHI concluded that patients who were unable to participate in treatment provided
in the PTSD program because of substance use/abuse or unstable medical and psychiatric
conditions were appropriately excluded and referred to other treatment programs.
Additionally, OHI did not substantiate that the patients not accepted into the PTSD program
were referred only to the Vet Center. OHI further concluded that patients who were not



                                                                       Health Care Delivery      •   5
Semiannual Report to Congress 	                           April 1, 2006 – September 30, 2006


    accepted into the PTSD program could access treatment in the outpatient department
    (OPD) and were not by default referred to the Vet Center.
    OHI concluded that there was no policy that clearly deﬁned admission and exclusion criteria
    for the PTSD program, and recommended that the facility director require a comprehensive
    policy governing the PTSD program’s admission and exclusion criteria be developed,
    implemented, and followed consistently by all clinicians in mental health services. OHI
    also recommended the facility director ensure VA/DoD-recommended treatment modalities
    are available to clinically appropriate patients with PTSD regardless of whether they obtain
    their treatment through the PTSD program or OPD clinic. The facility director agreed with
    OHI’s ﬁndings and recommendations and provided acceptable improvement plans. (Access
    to Post-Traumatic Stress Disorder Treatment, James J. Peters VA Medical Center, Bronx,
    New York)

    Returning Veteran’s Suicide Prompts Quality of Care Review
    A U.S. Senator requested an investigation into the care that a young OEF/OIF veteran
    received at a VA medical center (VAMC). This reservist committed suicide. The Senator’s
    request was made on behalf of the patient’s parents who expressed concerns regarding
    the quality of care received by their son. In addition, the parents alleged that the VAMC
    refused to release all medical records related to their son’s treatment. The purpose of this
    review was to determine the validity of the quality of care concerns and the alleged refusal
    to release all medical records pertaining to this patient’s care. OHI concluded that:
         • 	 The patient’s involuntary admission was appropriate. VAMC clinicians followed 

             procedures during his involuntary hospitalization. 

         • 	 The patient had the option to receive outpatient psychiatric treatment, but would not
             have satisﬁed usual criteria for admission to the specialized inpatient care.
         • 	 The patient was appropriately discharged although his family was not asked to attend
             a discharge planning meeting.
         • 	 The patient’s behavior 4 days after discharge from the VAMC did not satisfy criteria
             to support an involuntary admission. The inpatient ward milieu may have inﬂuenced
             the patient’s request for discharge and his unwillingness to be readmitted later. The
             patient declined follow-up at the VAMC mental health clinic.
    OHI concluded that the facility did what it could for this patient under the circumstances.
    The VAMC provided the family with the patient’s medical record and properly withheld
    internal quality assurance documents. OHI also concluded that because the VAMC is
    a medical center that primarily offers psychiatric care, it would be advantageous for a
    psychiatrist to see patients on the acute inpatient unit on a daily basis including weekends
    and holidays.
    The VAMC director concurred with OHI’s ﬁndings and established a procedure whereby
    the psychiatrist on call will review all possible admissions. Mental health clinicians also
    redesigned the VAMC’s PTSD program to increase access for recently diagnosed PTSD
    patients, concurrently treat substance abuse and PTSD, and create a PTSD clinical team to
    provide accessible outpatient treatment to patients to prevent hospitalizations. Further,
    clinicians developed a policy to address the need for new patients admitted to the inpatient
    psychiatry unit on a temporary involuntary hold to be evaluated by a psychiatrist on a daily
    basis, including weekends and holidays. (Review of Quality of Care Involving a Patient
    Suicide)

    VHA Needs to Increase Veterans’ Access to Non-Institutional Care
    In response to a congressional request, OHI reviewed VHA’s process to ensure that all
    eligible veterans who are enrolled and present a clinical need have adequate access to care.
    The objectives were to determine whether eligible veterans had access to non-institutional
    care, were enrolled and provided timely care if they wanted it, and received clinically
    indicated elective procedures within reasonable time frames. Inspectors concluded that
    VHA had established policies and performance measures to ensure that eligible veterans
    have the opportunity to receive their care in non-institutional settings when appropriate,



6    •     Health Care Delivery
April 1, 2006 – September 30, 2006                            VA Ofﬁce of Inspector General


but opportunities exist for VHA to further increase veteran access to non-institutional
care. The enrollment process at the ﬁve facilities visited complied with national enrollment
policies and did not include any local barriers that prevented or discouraged veterans from
enrolling. However, medical facilities needed to track new enrollees to ensure that those
who want care receive care, and VHA needed to establish acceptable time standards and
require medical facilities to measure the time veterans wait for elective procedures. OHI
made three recommendations to improve veterans’ access to care. The Under Secretary
for Health concurred. (Review of Access to Care in the Veterans Health Administration)

AIG for Healthcare Inspections Testiﬁes on Patient Safety Issues
On June 15, 2006, the Assistant Inspector General (AIG) for Healthcare Inspections
testiﬁed before the Subcommittee on Oversight and Investigations of the Committee on
Veterans Affairs, U.S. House of Representatives, on patient safety issues at the VA.
This testimony centered on recent OHI reports on processing sterile materials for use in
medical procedures and suggestions to improve current procedures.

CAP REVIEWS
VHA Environment of Care and Management Need Improvement
OHI inspectors conducting environment of care inspections during VHA medical facility
CAP reviews from January 1999 through August 2006 identiﬁed 119 facilities where
improvements were needed. The most frequent deﬁciencies were in the categories
of safety, cleanliness/sanitation, and infection control. CAP review reports have also
contained recurring ﬁndings that show pharmacy drug controls, including accountability for
controlled substances and pharmacy physical security, needed improvement at 175 VHA
medical facilities. OIG oversight of quality management (QM) in VHA facilities concluded
that many have established comprehensive QM programs and performed ongoing reviews
and analyses of mandatory areas.
Auditors participating in OIG CAP reviews at VHA facilities found that VHA ﬁnancial and
management controls for accounts receivable, agent cashier activities, contract award
and administration, Government purchase cards, information security, and management
of equipment and supply inventories were consistently reported as needing improvement.
Auditors also focused on VHA controls over part-time physicians’ time and attendance
and reported that some part-time physicians are not fully meeting their VA employment
obligations. These reviews found that VHA needs to strengthen controls to provide better
assurance of success for its operations. VHA must institute comprehensive and rigorous
oversight over these activities to realize improvements. (Review of Recurring and Systemic
Issues Identiﬁed During Combined Assessment Program Reviews at VA Facilities January
1999 through August 2006)

OFFICE OF INVESTIGATIONS
OIG’s Ofﬁce of Investigations (OI) conducts criminal investigations into allegations of
patient abuse, facilities security, drug diversion, theft of VA pharmaceuticals or medical
equipment, false claims for health care beneﬁts, and other frauds relating to the delivery
of health care to millions of veterans. In the area of health care delivery, OIG opened 197
cases, made 127 arrests, and obtained $2,557,806 in ﬁnes, restitution, penalties, and civil
judgments as well as savings, efﬁciencies/cost avoidance, and recoveries.




                                                              Health Care Delivery     •      7
             Semiannual Report to Congress                                April 1, 2006 – September 30, 2006


                               Corporate Executives Guilty in Patient Safety Conspiracy
                               Two former top corporate executives were found guilty of multiple felony counts
                               of conspiracy and fraud involving the manufacture, promotion, and sale of
                               a system marketed to hospitals to sterilize medical instruments. A joint
                               investigation with Food and Drug Administration (FDA) exposed the conspiracy
                               to defraud the Government by selling more than 160 sterilizers to hospitals
                               nationwide, including VAMCs, without FDA approval. At least six VA patients
                               suffered severe eye injuries. One executive was sentenced to 10 years’
                               imprisonment and 3 years’ probation. The other executive was sentenced to
                               6 years’ imprisonment and 3 years’ probation. They were ordered to make joint
                               restitution of $17,209,075.

                               Veteran Steals Identity to Gain Unwarranted Beneﬁts
                               A veteran was arrested after a joint FBI, OIG, and VA police investigation
                               disclosed that the veteran submitted an altered DD-214 military discharge record
                               to a VAMC to obtain medical care and pharmaceuticals he was not entitled to
                               receive. The DD-214 contained the Social Security number of another veteran.
                               Because the defendant had been discharged from the military under less than
                               honorable conditions, he was ineligible for certain VA beneﬁts. As a result of
                               the identity theft, the defendant received more than $100,000 in medical care,
                               prescription medication, and medical devices from VA to which he was not
                               entitled.

                               Nurse Steals Drugs From VA Intensive Care Patients
                               An allegation from the VA police resulted in an OIG investigation of a staff nurse
                               in the intensive care unit (ICU) of a VAMC who diverted doses of Fentanyl, a
                               Schedule II controlled substance intended for ICU patients, for 3 years. The nurse
                               resigned and pled guilty to obtaining a controlled substance through fraud after
                               admitting that she had replaced Fentanyl syringes with syringes containing saline
                               solution. She was sentenced to 12 months’ probation and ﬁned $500.

                               Gang Member Convicted in Murder of VA Police Ofﬁcer
                               A VA police ofﬁcer who was shot three times while standing post at a VAMC died in
                               the emergency room. A joint investigation with the FBI violent crimes task force
                               disclosed that the ofﬁcer was killed by members of a local street gang attempting
                               to steal his Government-issued ﬁrearm. A jury trial resulted in the conviction of
                               one defendant for murder, who awaits sentencing this fall.
Chicago Tribune, Chicago, IL
    September 14, 2006




              8     •     Health Care Delivery
April 1, 2006 – September 30, 2006                              VA Ofﬁce of Inspector General


                             Beneﬁts Processing
Many veterans, especially returning OEF/OIF veterans, need a variety of beneﬁts and
services in order to transition to civilian life. OIG works to improve the delivery of these
beneﬁts and services by identifying opportunities to improve the quality, timeliness, and
accuracy of beneﬁts processing. In addition, OIG reduces criminal activity in the delivery
of beneﬁts through proactive and targeted audit and investigative efforts.

OFFICE OF AUDIT
OIG performs audits of veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to veterans, dependents, and survivors. These audits identify
opportunities for enhancing the management of program operations and provide VA with
constructive recommendations to improve the delivery of beneﬁts.

Better Oversight Needed to Protect Incompetent Beneﬁciaries
VBA needs to provide more effective program oversight to reduce the increased risk of
fraud, misuse, or theft of beneﬁciary funds for beneﬁciaries who have been determined to
be incompetent. When a probate court or VA rating board determines a VA beneﬁciary is
incompetent to care for his or her ﬁnancial affairs, VBA personnel must assess the need
for a ﬁduciary, appoint an appropriate person or entity to manage the beneﬁciary’s funds,
and monitor the management of those funds. As of May 2004, the ﬁduciary program
was responsible for supervising the beneﬁts of over 100,000 VA beneﬁciaries, including
disabled veterans, widows, adult disabled children, and minors. The beneﬁts paid to
these beneﬁciaries total over $1 billion annually. The reported value of supervised estates
comprised of both VA and non-VA income is over $2.8 billion. These beneﬁciaries and their
funds are at increased risk for fraud.
Past audits have shown that beneﬁciary funds were not always adequately protected by
surety bonds or bond values were inadequate. OIG concluded that VBA needed to better
monitor ﬁduciaries required to submit periodic accountings of income and expenses, and
to require documentation of reported ﬁduciary expenses because some ﬁduciaries and
attorneys had charged excessive fees. In a recent audit, OIG estimated that
$435 million in beneﬁts payments and estates for just over 8,900 beneﬁciaries were
at risk for misuse because of inadequate oversight. Additionally, approximately 2,100
incompetent beneﬁciary estates nationwide could be subject to fraud with an estimated
impact of about $80.2 million, because VBA personnel did not follow up on questionable
or incomplete data in ﬁduciary accountings and did not require documentation to support
claimed expenses. This audit helped identify opportunities to ensure VBA adequately
protects the incomes and estates of beneﬁciaries who cannot take care of their ﬁnancial
affairs from fraud, waste, and other abuses. (Audit of Veterans Beneﬁts Administration
Fiduciary Program Operations)

Systemic Deﬁciencies Continue To Threaten Beneﬁts Services
OIG conducted CAP reviews at VBA facilities to ensure high-quality beneﬁts services.
Auditors examined a variety of risks and vulnerabilities in regional ofﬁce operations,
focusing on ﬁnancial and management controls.
CAP reviews at VBA regional ofﬁces identiﬁed systemic deﬁciencies that were negatively
impacting the efﬁciency of beneﬁts administration activities. During these reviews auditors
examined Government purchase card activities, information security, security of sensitive
records, and management performance issues. In addition, OIG reviewed VBA program
speciﬁc activities and controls for the compensation and pension program’s (C&P) hospital
adjustments, payments to incarcerated veterans, future medical examinations, ﬁduciary
and ﬁeld examination program activities, and controls for the vocational rehabilitation and
employment program.
These reviews found that persistent systemic deﬁciencies continue to pose unnecessary
risks to VBA operations. VBA needs to make additional efforts to strengthen controls to
provide better assurance of success and to institute comprehensive and rigorous oversight
of these activities to realize improvements. (Review of Recurring and Systemic Issues


                                                                 Beneﬁts Processing      •     9
Semiannual Report to Congress                           April 1, 2006 – September 30, 2006


Identiﬁed During Combined Assessment Program Reviews at VA Facilities January 1999
through August 2006)

OFFICE OF INVESTIGATIONS
VA administers a number of ﬁnancial beneﬁts programs for eligible veterans and certain
family members. Among the beneﬁts are VA guaranteed home loans, education,
insurance, and monetary beneﬁts provided by the C&P Service. With respect to VA
guaranteed loans, OI conducts investigations of loan origination fraud, equity skimming,
and criminal conduct related to management of foreclosed loans or properties.
C&P investigations routinely concentrate on payments being made to ineligible individuals.
For example, a beneﬁciary may feign a medical disability to deliberately defraud the
VA compensation program. The VA pension program, which is based on the beneﬁciary’s
income, is often defrauded by individuals who fail to report income in order to stay below
the eligibility threshold for these beneﬁts. OI’s ongoing proactive income veriﬁcation
match identiﬁes possible fraud in the pension program. OI’s ongoing death match project
identiﬁes deceased beneﬁciaries of VA’s C&P program whose beneﬁts continue because
VA was not notiﬁed of the death. In this reporting period, the death match project
recovered $2 million, with another $1.2 million in anticipated recoveries. Generally, family
members of the deceased are responsible for this type of fraud. In the area of beneﬁts
processing, OIG opened 307 cases, made 84 arrests, and had $31,288,711 in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies/cost avoidance,
and recoveries.

Over $1 Million Missing in Fiduciary Fraud
A VA ﬁduciary unit in Los Angeles, CA, alerted OIG that a VA ﬁduciary managing the
ﬁnancial affairs of more than 60 incompetent veterans had mismanaged their assets.
OIG’s investigation revealed that the ﬁduciary could not account for over $1 million
entrusted to her. The investigation also disclosed an additional culpable subject, the
ﬁduciary’s lawyer. They were indicted on 15 counts, including conspiracy, perjury, forgery,
submission of false evidence, grand theft, and embezzlement from an elder. The attorney
pled guilty to multiple counts and was sentenced to 40 months’ imprisonment and ordered
to pay $740,187 in restitution. The ﬁduciary awaits trial.

Fugitive Felon Who Swindled Terminally Ill Veteran Arrested
A veteran wanted for ﬁnancial elder abuse was arrested by OIG and the U.S. Marshals
Service. A state prosecutor had requested OIG’s assistance in locating and apprehending
the fugitive, who together with an accomplice had defrauded a terminally ill veteran of
$220,000. The two subjects befriended the veteran and used their friendship to swindle
the veteran of his life savings. The subjects also used the same scam to defraud additional
victims out of approximately $50,000. The second defendant was convicted and sentenced
to substantial jail time. The fugitive felon is awaiting trial.

Joint Investigation Catches Equity Skimmer
OIG conducted a joint investigation with Department of Housing and Urban Development
OIG after receiving an allegation from the U.S. Trustee’s Ofﬁce about a suspected
bankruptcy fraud scheme commonly referred to as equity skimming. The investigation
determined that an individual held foreclosure seminars leading people to believe that
he could arrange for them to own their home, even if currently in foreclosure, in a short
amount of time. Once employed, he ﬁled bankruptcy proceedings on behalf of unwitting
clients, allowing him to steal funds received from them for making mortgage payments
in their behalf. A Federal grand jury charged the subject in an 11-count indictment that
included bankruptcy, wire, and mail fraud violations. He awaits trial.

Couple Defraud VA to Collect for Daughters’ College Costs
OIG investigated a husband and wife for beneﬁts fraud. The investigation proved that the
husband made false statements to VA to obtain an undeserved 100 percent disability rating
and ﬁnancial compensation from VA. As a result, each of his stepdaughters received



10    •   Beneﬁts Processing
April 1, 2006 – September 30, 2006                            VA Ofﬁce of Inspector General


VA funds for their college education. The husband was charged with conspiracy to commit
health care fraud, money laundering, and theft of public money. The wife was charged
with misprision of felony. Both pled guilty. The husband was sentenced to 46 months’
incarceration and 3 years’ probation, and was ordered to pay restitution of $135,945.
The wife was sentenced to 30 days’ imprisonment and 1 year of probation, and was
ordered to pay of $126,133.

VA Beneﬁciary Caught Trying to Get a Second Check
Alerted by a VBA employee about a retroactive $234,360 lump sum payment, OIG
investigators determined that a VA beneﬁciary lied when he claimed that he neither
received nor negotiated a $99,999 check that was part of the payment, resulting in a
replacement check being issued for the same amount. The man was convicted of theft
and awaits sentencing.

Two Fugitive Felons Apprehended in Separate Cases
A local police department requested OIG assistance in apprehending a veteran wanted on
an outstanding felony warrant for sexual assault. The veteran was subsequently located
at a VA facility and was taken into custody by the local police with the assistance of OIG
and VA police. The veteran, who had an extensive criminal record, was also charged with
drug possession for cocaine at the time of his arrest.
A veteran was arrested by OIG and local police on an outstanding warrant of parole
violation based on a previous robbery conviction. In addition, the veteran was also wanted
on a warrant for assault with bodily injury. The veteran was identiﬁed as a result of OIG’s
fugitive felon program.




                                                              Beneﬁts Processing     •   11
Semiannual Report to Congress                           April 1, 2006 – September 30, 2006


                               Financial Management
     VA must provide all its departmental activities with accurate, reliable, and timely
     information for sound oversight and decision making. Since 1999, VA has achieved
     unqualiﬁed (“clean”) audit opinions on its consolidated ﬁnancial statements (CFS).
     OIG audits and reviews identify areas in which VA can improve ﬁnancial management
     controls, data validity, and debt management. The lack of an integrated ﬁnancial
     management system has remained a continuing material weakness.

     OFFICE OF AUDIT
     The Ofﬁce of Audit performs audits of ﬁnancial management operations, focusing on
     adequacy of VA ﬁnancial management systems in providing managers information needed
     to efﬁciently and effectively manage and safeguard VA’s assets and resources. OIG’s
     oversight work satisﬁes the Chief Financial Ofﬁcer Act of 1990 and the Government
     Performance Results Act of 1992 audit requirements for Federal ﬁnancial statements and
     provides timely, independent, and constructive reviews of ﬁnancial information, programs,
     and activities. OIG’s reports provide VA with constructive recommendations needed to
     improve ﬁnancial management and reporting throughout the Department.

     Congressional Concerns Prompt OIG Recommendations to VHA
     VA stakeholders remain concerned that the Department’s facilities have adequate funds
     to serve veterans’ health care needs. Two U.S. Senators requested that OIG determine
     whether VHA’s capital budgets were being utilized or set aside for health care spending,
     possibly signifying VA is facing a budget shortfall. At the same time, the Florida media
     reported a senator received an anonymous complaint alleging Veterans Integrated Service
     Network (VISN) 8 was anticipating a $200 million shortfall and Bay Pines VA Health
     Care System had a budget shortfall of over $20 million. Auditors examined three VISNs
     and concluded they were deferring nonrecurring maintenance projects and equipment
     purchases as a means of establishing a reserve for needs arising at the end of the budget
     cycle and that VISNs were not deferring the spending of capital funds for major and minor
     construction, major leases, and information technology projects.
     As a result of this work, VHA is ﬁnalizing a request to transfer funding from the medical
     services account to the medical administration account to eliminate the anticipated deﬁcit.
     Based on current spending rates at the VISNs reviewed, medical services spending should
     not exceed appropriations. However, because one VISN was anticipating a budget shortfall
     of $163.1 million in FY 2006, OIG recommended VHA and VISN managers perform a joint
     assessment to determine whether that VISN’s proposed actions will have a negative impact
     on patient care and safety. The review identiﬁed opportunities to strengthen budget
     processes, address potential shortfalls, and helped assess resource allocations VHA-wide.
     (Report of Audit Congressional Concerns over Veterans Health Administration’s Budget
     Execution)

     OFFICE OF HEALTHCARE INSPECTIONS
     OIG Evaluates VHA’s Homeless Grant and Per Diem Program
     VA estimates that about one-third of the adult homeless population in the United States is
     comprised of veterans, with about 200,000 homeless veterans living on the streets or in
     shelters on any given night, and possibly as many as 400,000 veterans homeless at some
     time during the course of the year. OIG evaluated VHA’s Homeless Grant and Per Diem
     (GPD) Program, which is authorized to establish alternative housing for homeless veterans
     through partnerships with non-proﬁt or local Government agencies. The evaluation focused
     on determining whether the program’s ﬁnancial controls were effective and reviewed the
     administration of the program to determine whether per diem rates paid to providers
     were appropriate. In addition, OIG assessed whether ﬁnancial reviews of grants and per
     diem payments were sufﬁcient to prevent overpayments to grant providers. The review
     showed that GPD providers generally met requirements regarding accounting for program
     funds and allocations of costs, but VAMC monitoring and oversight of grant providers was



12    •    Financial Management
April 1, 2006 – September 30, 2006                           VA Ofﬁce of Inspector General


inadequate. OIG identiﬁed instances where per diem rates were overstated and noted that
some overpayments went undetected because VA did not have adequate procedures in
place, prior to March 2006, to conduct incurred cost reviews of grant providers. The review
determined that 20 of the 32 programs reviewed were overpaid about $1.5 million, and it
concluded ﬁnancial oversight of GPD providers should be centralized to provide consistent
oversight of grant providers. (Evaluation of the Veterans Health Administration Homeless
Grant and Per Diem Program)

OFFICE OF INVESTIGATIONS
Former VA Nurse Pleads Guilty in Workers’ Compensation Fraud
A former VA nurse pled guilty to fraudulently receiving more than $246,000 in worker’s
compensation beneﬁts for an injury sustained 10 years ago at a VAMC. A joint
investigation with Department of Labor OIG revealed that she submitted fraudulent
paperwork stating that she was unable to hold gainful employment because of her
disability, despite earning more than $100,000 while employed as an adult care giver.




                                                          Financial Management      •    13
Semiannual Report to Congress                           April 1, 2006 – September 30, 2006



                          Procurement Practices
VA spends over $6 billion annually for pharmaceuticals, medical and surgical supplies,
prosthetic devices, information technology, construction, and services. In response to a
May 2001 OIG report, the VA Secretary established a Procurement Reform Task Force. VA
has implemented 60 of the 65 recommendations the Task Force made, as well as numerous
other OIG recommendations for improvement. OIG contract audits focus on compliance
with Federal and VA acquisition regulations and cost efﬁciencies. Preaward and postaward
contract reviews have resulted in $26.9 million in monetary beneﬁts during this reporting
period.

OFFICE OF AUDIT
To improve VA acquisition programs and activities, the Ofﬁce of Audit identiﬁes
opportunities to achieve economy, efﬁciency, and effectiveness for VA’s national and
local acquisitions and supply chain management. In addition, OIG examines how well
major acquisitions are achieving objectives and desired outcomes. OIG’s efforts focus
on determining whether the Department is taking advantage of its full purchasing power
when it acquires goods and services. Auditors examine how well VA is managing and
safeguarding resources and inventories, obtaining economies of scale, and identifying
opportunities to employ best practices.

VHA Could Save $6.2 Million in Transcribing Medical Services
VA physicians and other health care providers record their medical assessments—such
as admission and discharge summaries, operative reports, and consultations—through
dictation that is then transcribed into documents that become part of the patient medical
ﬁle. VA contracts out for most medical transcription work, although some is performed
in-house by VA employees. This audit was initiated after an OIG hotline complaint
disclosed that a contractor transcribing reports for several VHA facilities had submitted
erroneous invoices. Auditors examined whether VHA had adequate controls to ensure
patient health care information (PHI) was secure against unauthorized access once the
information was in the possession of a contractor and assessed whether VHA transcription
services were acquired economically, efﬁciently, and in compliance with applicable laws and
regulations.
Results showed staff at VHA medical facilities did not adequately verify supporting
information when approving invoices for payment, which resulted in overpayments to some
contractors. In addition, facilities did not ensure PHI sent to transcription contractors
was protected against unauthorized access or use. This review recommended using
speech recognition technology to transcribe medical reports in-house as an alternative to
outsourcing to resolve security concerns about PHI and reduce costs by as much as
$6.2 million annually. OIG identiﬁed opportunities to help VHA ensure contractors
safeguard patients’ PHI and provided recommendations to strengthen management
controls over patient privacy and invoice veriﬁcation practices. (Audit of the Veterans
Health Administration’s Acquisition of Medical Transcriptions Services)

VA’s Compliance with the Economy Act Could Be Improved
As Federal agencies increasingly use contracts and acquisition services offered by other
agencies on a reimbursable fee basis, they often use existing interagency contracts to save
time and administrative effort. Increased use of interagency contracts has come about as
a result of various legislative reforms passed in the 1990s that allowed Federal agencies to
streamline the acquisition process, operate more business-like, and offer increasing types
of services to other agencies on a reimbursable basis. OIG audited VA acquisition for other
Government agencies (OGAs) and found that two VHA contracting activities did not comply
with Economy Act regulations when administering acquisitions for OGAs by charging the
OGAs excessive service fees of about $8.1 million in FYs 2003 and 2004. Additionally,
contracting ofﬁcers made interagency acquisitions that often did not comply with
Federal and VA acquisition regulations and violated VA policy by making 35 interagency
acquisitions valued at about $15 million that were not within the scope of VA’s mission.



14    •   Procurement Practices
April 1, 2006 – September 30, 2006                               VA Ofﬁce of Inspector General


VHA and VA’s Ofﬁce of Acquisition and Materiel Management (OA&MM) are addressing
the recommendations to ensure compliance with the Economy Act, Federal Acquisition
Regulations, and VA policy, as well as to centralize management of interagency acquisition
programs under OA&MM. The Under Secretary for Health agreed to transfer management
of interagency acquisitions under the Economy Act and the VA-DoD Healthcare Resources
and Emergency Operations Act of 1982 to OA&MM. (Audit of VA Acquisitions for Other
Government Agencies)

OFFICE OF INVESTIGATIONS
OI investigates allegations of bribery and kickbacks, bid rigging and antitrust violations,
false claims submitted by contractors, and other fraud relating to VA’s procurement
activities. In the area of procurement practices, OIG opened 14 cases, made 6 arrests,
and had $41,067,525 in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies/cost avoidance, and recoveries.

Pharmaceutical Company Fined Millions for Drug
Promotion
A joint investigation found that a major pharmaceutical company
had improperly promoted several of its drugs for uses that were not
approved by the FDA and had offered or paid kickbacks to physicians
to prescribe those drugs. The Department of Justice reached a $435
million global settlement with the company and its sales subsidiary
to resolve criminal charges and civil liabilities. The sales subsidiary
agreed to pay a $180 million criminal ﬁne and another $255 million
together with the parent pharmaceutical company to settle civil
liabilities. The sales subsidiary also pled guilty to making false
statements regarding its best price for certain drugs, and will be
excluded permanently from participation in all Federal health care
programs. VA’s portion of the settlement is approximately
$3 million.

VA Employee Accepts Bribes From Contractor
OIG, General Services Administration OIG, and VA police conducted
a joint investigation into allegations of numerous billing irregularities
by an auto repair shop for parts, labor, and other services related to
the maintenance of VAMC vehicles. The investigation determined
that a VA transportation program manager received bribes, including
cash and checks, from a VA contractor to approve work on VA
vehicles that was not needed, not done, and/or previously billed.
This VA employee, who resigned early in the investigation and had
previously pled guilty to bribery, was sentenced to 36 months’
probation and ordered to pay a $3,000 ﬁne. The owner of the auto
repair shop and the corporation pled guilty to bribery and fraudulent
acceptance of VA payments. The auto repair corporation was
ordered to pay $150,000. The owner was sentenced to 6 months’
home conﬁnement and 12 months’ probation, and was ordered to
pay $27,747 in restitution.

                                                                            Washington Post, Washington, DC
OFFICE OF CONTRACT REVIEW                                                          August 29, 2006

The Ofﬁce of Contract Review (OCR) operates under a reimbursable
agreement with OA&MM to provide preaward, postaward, and other
requested reviews of vendors’ proposals and contracts. In addition, OCR provides advisory
services to OA&MM contracting activities. They completed 45 reports in this reporting
period. The tables on the next page provide an overview of OCR performance.
Preaward reviews provide information to assist VA’s contracting ofﬁcers in ensuring the
negotiation of fair and reasonable contract prices, and to identify monetary beneﬁts.
Preaward reviews identiﬁed $24,982,810 in potential cost savings during this reporting


                                                              Procurement Practices     •    15
Semiannual Report to Congress                            April 1, 2006 – September 30, 2006


     period. Preaward reviews include FSS, cost-per-test, and the acquisition of health care
     provider services from VA afﬁliated medical schools.

     CONTRACT PREAWARD REVIEWS
                                           April 1, 2006 –                  Summary
                                        September 30, 2006                   FY 2006

       Preaward Reports Issued                    23                            50

          Potential Cost Savings            $24,982,810                   $98,754,797




     OCR conducted postaward reviews to ensure vendors’ compliance with contract terms and
     conditions. These reviews resulted in the recovery of $1,906,327.

     CONTRACT POSTAWARD REVIEWS

                                           April 1, 2006 –                  Summary
                                       September 30, 2006                    FY 2006
           Postaward Reports
                                                  21                            34
                Issued
            Dollar Recoveries                $1,906,327                   $19,526,903




     OTHER REPORTS ISSUED

                                           April 1, 2006 –                  Summary
                                       September 30, 2006                    FY 2006

             Special Report                       1                             1
          Total Reports Issued                    45                            85




     As a result of an OIG report based on OCR reports (Evaluation of VHA Sole-Source
     Contracts with Medical Schools and Other Afﬁliated Institutions), VA revised VA Directive
     1663—Health Care Resources Contracting—Buying during this reporting period. Findings
     and recommendations in the OIG report were incorporated into the revised directive, and
     should result in improved contracting for health care resources.

     Review of Ophthalmology Services Contract Identiﬁes Deﬁciencies
     A postaward review disclosed signiﬁcant issues with the contract terms and conditions,
     including inconsistencies in the pricing schedule, the statement of work, and the invoicing.
     A review of timecards used for invoicing purposes showed that the VAMC did not receive
     the number of hours required under the contract. OCR identiﬁed nearly $740,000 in
     overcharges based on the level of services actually received.




16    •     Procurement Practices
        April 1, 2006 – September 30, 2006                             VA Ofﬁce of Inspector General



                             Information Management
The loss of VA data on approximately 26 million veterans and military personnel highlights the
challenges facing the VA in the area of information security. OIG conducted a criminal investigation,
an administrative review, and a review of information technology (IT) security policies and procedures.
Other investigations include theft of IT equipment or data, intrusions, identity theft, and child
pornography. In the area of information management crimes, OIG opened 9 cases, made 3 arrests,
and had $102,235 in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies/
cost avoidance, and recoveries.

VA Data Loss Involves Identities of Millions of Veterans
The home of a VA employee was burglarized, resulting in the theft of a personally-
owned laptop computer and external hard drive, which was reported to contain
personal information on approximately 26 million veterans and U.S. military
personnel. VA staff did not notify the Secretary of the breach for 14 days. OIG
conducted a joint criminal investigation with the FBI and the Montgomery County,
Maryland, Police Department to recover the stolen computer hardware, arrest the
burglars, and establish whether the VA data had been compromised following the
burglary. Investigators recovered the stolen computer equipment, and the FBI
computer forensics analysis found no evidence to indicate that the missing VA data
had been compromised. Two 19-year old males were charged with the burglary.
OIG conducted an administrative review into the loss of the data. Investigators
found the employee was not authorized to take VA data home and did not encrypt
or password protect the data. Senior ofﬁcials failed to recognize the magnitude of
the incident and did not identify it as a high priority item needing to be reported
to the Secretary, and information security ofﬁcials acted with indifference and little
sense of urgency. OIG’s review also found VA policies and procedures did not
adequately protect personal or proprietary data. In addition, VA did not implement
procedures for reporting and investigating incidents involving lost or stolen protected
information as required by the Federal Information Security Management Act of 2002
(FISMA), and did not implement the National Institute of Standards and Technology
recommendations for security incident responses.
The Secretary agreed with the ﬁndings and recommendations. As a result of OIG’s
oversight activities in connection with this incident, VA ofﬁcials initiated a broad
review and revision of departmental security directives, and implemented an intense
all-employee training program focusing on security awareness and the protection
of Privacy Act data. VA has provided acceptable improvement plans based on OIG
recommendations, and OIG will follow up on implementation. (Review of Issues
Related to the Loss of VA Information Involving the Identity of Millions of Veterans)
The data loss generated interest from both Congress and the public. Congress
held a series of hearings at which OIG participated. The IG testiﬁed at a hearing
of the House Committee on Veterans’ Affairs and a joint hearing of the Senate
Committee on Veterans’ Affairs and the Senate Committee on Homeland Security
and Governmental Affairs, on May 25, 2006. The IG also testiﬁed before the Senate
Committee on Veterans’ Affairs on July 20, 2006, on the results of OIG’s review of
the data loss.

OIG Review Finds IT Security Deﬁciencies Remain Unresolved
Annually, OIG is required to review VA’s compliance with FISMA. These reviews and work conducted
during the CFS audit have led OIG to report information security and security of data and data
systems as a major management challenge for the VA since FY 2000. The 2005 FISMA assessment
again identiﬁed numerous unresolved recommendations from prior OIG reports that need to be fully
addressed in order to mitigate information security weaknesses. VA leadership needs to take actions
to implement a centralized IT program to ensure consistent administration and control of information
and data; apply appropriate resources; establish, modify, and clarify IT policies and procedures; and
implement and enforce security controls. (FY 2005 Audit of VA Information Security Program)




                                                                 Information Management      •   17
   Semiannual Report to Congress                           April 1, 2006 – September 30, 2006


The AIG for Auditing testiﬁed twice on the results of recent OIG work related to information security
weaknesses in VA and its implementation of previous OIG recommendations. On June 14, 2006,
the AIG testiﬁed at the House Committee on Veterans’ Affairs; and on June 20, 2006, the AIG
testiﬁed at a joint hearing of the Subcommittee on Disability Assistance and Memorial Affairs and the
Subcommittee on Economic Opportunity.

Stolen UNISYS Computer Recovered Without Data Compromise
A computer with VA data was stolen from Unisys Corporation, which provides software support to the
Pittsburgh and Philadelphia VAMCs. The computer contained insurance claim data, including names,
addresses, and personal identiﬁers, for approximately 16,000 patients treated in these two facilities
or their community clinics. OIG and the FBI immediately opened a joint investigation. Investigators
recovered the computer and arrested a contract employee at Unisys. Forensic analysis conducted by
the FBI has not been completed.

VA Employee Arrested Watching Child Pornography at Work
A joint investigation by OIG, FBI, VA police, and local police revealed that a VAMC employee accessed
child pornography websites on a Government computer during duty hours. The investigation
determined that the employee had used a VAMC computer in a conference room that did not require
him to use a logon or password, which creates accountablity problems in misuse cases. The employee
was arrested at work while viewing child pornography.

Veteran Makes False Threats Against VA’s Network
VHA received an e-mail from a hacker who claimed to have illegally accessed VA’s network resources
and threatened to expose network vulnerabilities. A joint investigation with the Secret Service located
the hacker, who admitted to sending the e-mail and similar e-mails under the inﬂuence of alcohol and
mental disorder medications. He had been previously visited by the FBI because of another e-mail
incident and admitted a previous arrest for executing a virus that caused problems with the computer
system at the college he attended. He denied compromising VA systems, hacking into any part of the
systems, or any other similar activities. No intrusion or compromised systems were identiﬁed by VA
IT staff.




   18    •    Information Management
April 1, 2006 – September 30, 2006                            VA Ofﬁce of Inspector General



                                         APPENDIX A

                        DEPARTMENT OF VETERANS AFFAIRS
                          OFFICE OF INSPECTOR GENERAL
                              REVIEWS BY OIG STAFF

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                    Report Title                             OIG      Management     Costs

COMBINED ASSESSMENT PROGRAM REVIEWS
06-00008-130     Combined Assessment Program Review of                  $33,810          $33,810
4/17/06          the James E. Van Zandt VA Medical Center
                 Altoona, PA
06-00511-131     Combined Assessment Program Review of                  $12,211          $12,211
4/17/06          the VA Medical Center Tomah, WI
05-01606-134     Combined Assessment Program Review of                 $101,974        $101,974
4/27/06          the Northampton VA Medical Center Leeds,
                 MA
05-03096-137     Combined Assessment Program Review of               $1,060,142      $1,060,142
5/2/06           the VA Western New York Healthcare System
                 Buffalo, NY
06-00372-142     Combined Assessment Program Review of               $1,303,897      $1,303,897
5/12/06          the VA San Diego Healthcare System San
                 Diego, CA
05-02925-144     Combined Assessment Program Review of                  $43,911          $43,911
5/15/06          the VA Medical Center Birmingham, AL
06-00010-146     Combined Assessment Program Review of                 $162,206        $162,206
5/22/06          the VA Regional Ofﬁce Waco, TX
05-03281-168     Combined Assessment Program Review of                  $48,294          $48,294
7/17/06          the VA Medical Center Huntington, WV
05-01232-174     Combined Assessment Program Review of                  $95,269          $95,269
7/24/06          the VA Medical Center Coatesville, PA
06-00661-175     Combined Assessment Program Review of                  $29,454          $29,454
7/24/06          the West Texas VA Health Care System Big
                 Spring, TX
06-01218-176     Combined Assessment Program Review of                 $224,529        $224,529
7/26/06          the Syracuse VA Medical Center Syracuse,
                 New York
06-00510-192     Combined Assessment Program Review of 

8/17/06          the Iron Mountain VA Medical Center Iron 

                 Mountain, MI
06-01136-193     Combined Assessment Program Review of 

8/18/06          the Samuel S. Stratton VA Medical Center 

                 Albany, NY




                                                                                  Appendix    •    19
              Semiannual Report to Congress                        April 1, 2006 – September 30, 2006


  Report                                                          Funds Recommended
 Number/                                                              for Better Use
Issue Date                   Report Title                         OIG        Management   Questioned Costs

 05-01230-195       Combined Assessment Program Review              $27,296         $27,296
 8/21/06            of the John J. Pershing VA Medical Center
                    Poplar Bluff, MO
 06-01287-196       Combined Assessment Program Review of          $669,021       $669,021
 8/24/06            the VA Loma Linda Healthcare System Loma
                    Linda, CA
 06-01128-201       Combined Assessment Program Review of
 9/11/06            the VA New Jersey Health Care System East
                    Orange, NJ
 06-01831-202       Combined Assessment Program Review
 9/11/06            of the VA Maryland Healthcare System
                    Baltimore, MD
 06-02301-210       Combined Assessment Program Review of
 9/13/06            the James H. Quillen VA Medical Center
                    Mountain Home, TN
 06-01706-209       Combined Assessment Program Review of
 9/14/06            the Salem VA Medical Center Salem, VA
 06-01520-211       Combined Assessment Program Review of
 9/15/06            the G.V. (Sonny) Montgomery VA Medical
                    Center Jackson, MS
 06-00896-212       Combined Assessment Program Review of
 9/18/06            the Muskogee VA Medical Center Muskogee,
                    OK
 06-01602-219       Combined Assessment Program Review of
 9/25/06            the VA Iowa City Health Care System Iowa
                    City, IA
 06-02245-220       Combined Assessment Program Review of
 9/25/06            the W.G. (Bill) Hefner VA Medical Center
                    Salisbury, NC
 06-02003-225       Combined Assessment Program Review of
 9/26/06            the VA Paciﬁc Islands Health Care System
                    Honolulu, HI
 06-01521-229       Combined Assessment Program Review of
 9/28/06            the Alexandria VA Medical Center Pineville,
                    LA
 06-01949-230       Combined Assessment Program Review of
 9/28/06            the Louis A. Johnson VA Medical Center
                    Clarksburg, WV
 06-01571-231       Combined Assessment Program Review of
 9/29/06            the Atlanta VA Medical Center Atlanta, GA
 06-00627-232       Combined Assessment Program Review
 9/29/06            of the Washington VA Medical Center,
                    Washington, DC




20    •      Appendix
April 1, 2006 – September 30, 2006 	                              VA Ofﬁce of Inspector General


  Report                                                              Funds Recommended
 Number/                                                                  for Better Use
Issue Date                 Report Title                               OIG        Management      Questioned Costs

 06-02002-233      Combined Assessment Program Review of
 9/29/06           the VA Boise Medical Center Boise, ID
 06-00635-234      Combined Assessment Program Review of                 $22,501         $22,501
 9/29/06           the VA Black Hills Health Care System, South
                   Dakota
 06-03441-227      Review of Recurring and Systematic Issues
 9/25/06           identiﬁed During Combined Assessment
                   Program Reviews at VA Facilities January
                   1999 through August 2006


JOINT REVIEWS
 05-01978-226	     Review of Selected Financial and
 9/27/06	          Administrative Operations at VISN 1 Medical
                   Facilities



INTERNAL AUDITS

 04-03178-139     Audit of VA Acquisitions for Other
 5/5/06           Government Agencies
 04-00018-155     Audit of the Veterans Health Administration’s      $6,000,000
 6/14/06          Acquisition of Medical Transcription Services
 05-01931-158     Audit of Veterans Beneﬁts Administration        $515,245,948     $515,245,948
 6/27/06          Fiduciary Program Operations
 06-01414-160     Report of Audit Congressional Concerns over
 6/30/06          Veterans Health Administration’s Budget
                  Execution
 06-00116-177     Audit of Allegations at the Health
 7/26/06          Administration Center Denver, CO
 05-00055-216     FY 2005 Audit of VA Information Security
 9/20/06          Program


  OTHER OFFICE OF AUDIT REVIEWS
 05-00043-129     Evaluation of the Possible Mismanagement           $1,289,568     $1,289,568
 4/17/06          of Non-Appropriated Research Funds at the
                  VA Central California Health Care System




                                                                                        Appendix      •   21
              Semiannual Report to Congress                              April 1, 2006 – September 30, 2006


  Report                                                                Funds Recommended
 Number/                                                                    for Better Use
Issue Date                       Report Title                           OIG        Management   Questioned Costs

HEALTHCARE INSPECTIONS


05-02562-124            Review of Quality of Care Involving a Patient
4/7/06                  Suicide
06-01642-126            Health Care Inspection Quality of Care in
4/10/06                 Cranial Implant Surgeries at James A. Haley
                        VA Medical Center Tampa, FL
05-02986-125            Healthcare Inspection Review of a Surgical
4/12/06                 Technician’s Duties John D. Dingell VA
                        Medical Center Detroit, MI
06-00046-132            Coronary Artery Disease Treatment Issues,
4/21/06                 Sioux Falls Veterans Affairs Medical Center
                        Sioux Falls, SD
06-00460-133            Healthcare Inspection Nursing Home Care
4/21/06                 Unit and Homemaker Assistance Program
                        Issues, Marion VA Medical Center Marion, IL
05-03084-135            Healthcare Inspection Resident Supervision
4/28/06                 Issues in the Operating Room William
                        Jennings Bryan Dorn VA Medical Center
                        Columbia, SC
05-03028-145            Review of Access to Care in the Veterans
5/17/06                 Health Administration
06-00703-147            Healthcare Inspection Credentialing and
5/22/06                 Privileging Irregularities at the South Texas
                        Veterans Health Care System San Antonio,
                        TX
06-00140-148            Healthcare Inspection Alleged Patient Care
5/23/06                 and Communication Issues VA Medical
                        Center Fayetteville, NC
06-01217-154            Healthcare Inspection Follow-Up Evaluation
6/12/06                 of Clinical and Administrative Issues Bay
                        Pines Health Care System Bay Pines, FL
06-00207-159            Healthcare Inspection Delay in Care and
6/30/06                 Discourteous Employees at the Michael E.
                        DeBakey VA Medical Center Houston, TX
05-00641-166            Healthcare Inspection Follow-Up Review of
7/12/06                 the Quality of Care at the James A. Haley VA
                        Medical Center Tampa, FL
05-01818-165            Healthcare Inspection Health Status of and
7/12/06                 Services for Operation Enduring Freedom/
                        Operation Iraqi Freedom Veterans after
                        Traumatic Brain Injury Rehabilitation
05-03287-169            Healthcare Inspection Patient Care Issues VA
7/17/06                 Medical Center Lexington, KY




22    •      Appendix
April 1, 2006 – September 30, 2006                                  VA Ofﬁce of Inspector General


  Report                                                                Funds Recommended
 Number/                                                                    for Better Use
Issue Date                 Report Title                                 OIG        Management   Questioned Costs


 06-00741-173       Healthcare Inspection Quality of Medical
 7/21/06            Management and Nursing Care, VA Boston
                    Healthcare System Boston, MA
 05-01624-184       Healthcare Inspection Patient Care and
 8/7/06             Stafﬁng Issues Physical Medicine and
                    Rehabilitation Service Kansas City VA Medical
                    Center Kansas City, MO
 05-03501-186       Healthcare Inspection Alleged Hostile Work
 8/11/06            Environment and Quality of Care Issues
                    Evansville Outpatient Clinic Evansville, IN
 05-03571-187       Healthcare Inspection Access to
 8/11/06            Post-Traumatic Stress Disorder Treatment
                    James J. Peters VA Medical Center, Bronx
                    New York Bronx, NY
 06-01458-194       Healthcare Inspection Quality of Care in the
 8/18/06            Operating Room at the Overton Brooks VA
                    Medical Center Shreveport, LA
 06-02010-197       Healthcare Inspection Alleged Denial of Care
 8/22/06            and Lapse in Courtesy, Louis Stokes VA
                    Medical Center Cleveland, OH
 05-02408-208       Healthcare Inspection Review of Patient
 9/14/06            Transfer between Mental Health Providers,
                    Huntington VA Medical Center Huntington,
                    WV
 04-00888-215       Evaluation of the Veterans Health
 9/20/06            Administration Homeless Grant and Per Diem
                    Program
 06-00437-218       Healthcare Inspection Review of Quality
 9/22/06            of Care John D. Dingell VA Medical Center
                    Detroit, MI
 06-00008-237       Healthcare Inspection Review of Alleged
 9/29/06            Institutional Mistreatment/Mismanagement
                    of Geriatrics and Extended Care Patients VA
                    Medical Center Coatesville, PA




                                                                                          Appendix   •   23
                   Semiannual Report to Congress                              A
                                                                              	 pril 1, 2006 – September 30, 2006


       Report                                                               Funds Recommended
      Number/                                                                   for Better Use
     Issue Date                      Report Title                           OIG        Management     Questioned Costs


ADMINISTRATIVE INVESTIGATIONS
     04-02900-127	           Administrative Investigation Misuse
     4/11/06	                of Position, VA Greater Los Angeles
                             Healthcare System West Los Angeles, CA
     06-01748-141	           Administrative Investigation, Misuse of
     5/10/06	                Position and Resources, and Inaccurate
                             Medical Records Bay Pines VA Healthcare
                             System Bay Pines, FL
     06-02238-163            Review of Issues Related to the Loss of
     7/11/06                 VA Information Involving the Identity of
                             Millions of Veterans
     05-01545-178	           Administrative Investigation, Misuse of
     7/27/06	                Ofﬁcial Time by a Physician VA Medical
                             Center Oklahoma City, OK
     05-03080-179	           Administrative Investigation, Improper
     7/27/06	                Tuition Reimbursements Veterans
                             Integrated Service Network 15 Kansas
                             City, MO
     05-00041-198	           Administrative Investigation, Travel
     8/23/06	                Irregularities and Misuse of Funds,
                             Veterans Integrated Service Network 7
                             Atlanta, GA
     TOTAL:                    69 Reports                               $526,370,031   $520,370,031                 $0




     24    •      Appendix
April 1, 2006 – September 30, 2006                          VA Ofﬁce of Inspector General


                                             APPENDIX B

     STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994 requires Federal agencies to complete ﬁnal action
on each OIG report recommendation within 12 months after the report is ﬁnalized. The OIG is
required to identify unimplemented recommendations in its Semiannual Report to Congress until
the ﬁnal action is completed. This appendix summarizes the status of OIG unimplemented reports
and recommendations. The following chart lists the total number of unimplemented OIG reports
and recommendations by organization. It also provides the total number of unimplemented reports
and recommendations issued over 1 year ago (September 30, 2005, and earlier). One report on the
following chart has actions at 3 ofﬁces.


                            Unimplemented OIG Reports and Recommendations


   VA                                                                 Issued 9/30/05
                                Total
  Ofﬁce                                                                  and Earlier

                   Reports            Recommendations          Reports          Recommendations

    VHA               84                     460                 16                    51

  OA&MM               106                    216                  0                     0

    VBA                3                      7                   2                     6

   OI&T                9                      58                  1                     8

    OM                 4                      19                  3                    12




Ofﬁce of Information and Technology (OI&T)
Ofﬁce of Management (OM)




                                                                                 Appendix    •       25
              Semiannual Report to Congress                                 April 1, 2006 – September 30, 2006




                                     Reports Unimplemented for Over 1 Year


  Report         Date of                          Title                            Responsible           Open
  Number          Issue                                                           Organization(s)   Recommendations


                                   Healthcare Inspection, Evaluation
02-00972-44     12/31/02      of VHA’s Contract Community Nursing Home                 VHA              1 of 11
                                            (CNH) Program


                              Audit of VHA’s Part-Time Physician Time and
02-01339-85      4/23/03                                                               VHA              9 of 17
                                              Attendance

                               Healthcare Inspection, Evaluation of VHA
02-00124-48     12/18/03                                                               VHA               2 of 4
                              Homemaker and Home Health Aide Program


 03-00391-                      Healthcare Inspection, VHA’s Community
    138          5/3/04                                                                VHA              4 of 11
                                    Residential Care (CRC) Program


                             Issues at VA Medical Center Bay Pines, Florida            OI&T             8 of 67
 04-01371-       8/11/04     and Procurement and Deployment of the Core                 OM              3 of 67
    177                                                                                                 1 of 67
                                Financial and Logistics System (CoreFLS)               VHA


 03-00079-                     Healthcare Inspection, Evaluation of Nurse
    183          8/13/04                                                               VHA              11 of 15
                                        Stafﬁng in VHA Facilities

                             Evaluation of Selected Medical Care Collections
03-00940-38      12/1/04                                                               VHA               2 of 4
                                Fund First Party Billings and Collections

                            Combined Assessment Program Review of the VA
04-01805-55     12/27/04     Eastern Colorado Health Care System, Denver,              VHA              1 of 40
                                               Colorado

                             Evaluation of Veterans Beneﬁts Administration             VBA
04-01271-74      2/1/05        Vocational Rehabilitation and Employment                                  2 of 7
                                            (VR&E) Contracts

                                  Healthcare Inspection, Emergency
05-00290-78      2/8/05    Decontamination Preparedness, VA Salt Lake City             VHA               1 of 2
                              Health Care System, Salt Lake City, Utah

                            Evaluation of Sole-Source Contracts with Medical
05-01318-85      2/16/05                                                               VHA              1 of 35
                                Schools and Other Afﬁliated Institutions


 02-00986-                  Evaluation of VA Compliance with Federal Energy
    101          3/9/05                                                                 OM              5 of 12
                                          Management Policies



                             Combined Assessment Program Review of the
 04-03403-
                 5/5/05       Central Texas Veterans Healthcare System,                VHA              1 of 14
    133
                                              Temple, TX


 05-00765-                     Review of State Variances in VA Disability
                 5/19/05                                                               VBA               4 of 8
    137                                Compensation Payments




 26    •      Appendix
  April 1, 2006 – September 30, 2006                                VA Ofﬁce of Inspector General




                                   Reports Unimplemented for Over 1 Year


  Report       Date of                          Title                           Responsible              Open
  Number        Issue                                                          Organization(s)      Recommendations


                         Combined Assessment Program Review of the VA
05-01248-170   7/8/05                                                               VHA                    1 of 15
                         Salt Lake Healthcare System, Salt Lake City, UT


                         Combined Assessment Program Review of the VA
05-00502-171   7/8/05                                                               VHA                    1 of 19
                                   Medical System, Miami, FL


                           Healthcare Inspection, Inspection of Veterans
04-00235-180   8/4/05      Health Administration Patient Transportation             VHA                    9 of 9
                                             Services


                            Administrative Investigation, Appearance of
04-00616-203   9/19/05       Preferential Treatment, VA Medical Center,             VHA                    3 of 5
                                           Fayetteville, NC


                          Audit of VA Acquisition Practices for the National
04-02330-212   9/30/05                                                              OM                     4 of 6
                                Vietnam Veterans Longitudinal Study


                           Combined Assessment Program Review of the
05-02007-219   9/30/05   Southern Arizona VA Health Care System, Tucson,            VHA                    3 of 19
                                               AZ




                                                                                          Appendix     •      27
          Semiannual Report to Congress                           April 1, 2006 – September 30, 2006




                                        APPENDIX C

          INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act of 1978 (Public Law 95-452), as
amended by the Inspector General Act Amendments of 1988 (Public Law 100-504), and the Omnibus
Consolidated Appropriations Act of 1997 (Public Law 104-208).




     IG Act                            Reporting
                                                                                   Status
   References                         Requirement

 Section 4 (a) (2)   Review of legislation and regulations                Commented on 6 items
 Section 5 (a) (1)   Signiﬁcant problems, abuses, and deﬁciencies         See pages 5-18

                     Recommendations with respect to signiﬁcant
 Section 5 (a) (2)                                                        See pages 5-18
                     problems, abuses, and deﬁciencies
                     Prior signiﬁcant recommendations on which
 Section 5 (a) (3)                                                        See page 29
                     corrective action has not been completed
                     Matters referred to prosecutive authorities and
 Section 5 (a) (4)                                                        See pages 5-18
                     resulting prosecutions and convictions
                     Summary of instances where information was
 Section 5 (a) (5)                                                        none
                     refused
                     List of audit reports by subject matter,
 Section 5 (a) (6)   showing dollar value of questioned costs and         See pages 19-24
                     recommendations that funds be put to better use
 Section 5 (a) (7)   Summary of each particularly signiﬁcant report       See pages 5-18
                     Statistical tables showing number of reports and
 Section 5 (a) (8)   dollar value of questioned costs for unresolved,     See page 29
                     issued, and resolved reports
                     Statistical tables showing number of reports and
                     dollar value of recommendations that funds be put
 Section 5 (a) (9)                                                        See page 29
                     to better use for unresolved, issued, and resolved
                     reports
                     Summary of each audit report issued before
 Section 5 (a)
                     this reporting period for which no management        See page 29
 (10)
                     decision was made by end of reporting period
 Section 5 (a)
                     Signiﬁcant revised management decisions              none
 (11)
 Section 5 (a)       Signiﬁcant management decisions with which the
                                                                          none
 (12)                Inspector General is in disagreement
                     Information described under section 5(b) of the
 Section 5 (a)                                                            VA has met its
                     Federal Financial Management Improvement Act of
 (13)                                                                     September milestones
                     1996 (Public Law 104-208)




28    •   Appendix
April 1, 2006 – September 30, 2006                    VA Ofﬁce of Inspector General




Table 1: Resolution Status of Reports With Questioned Costs



                                                                             Dollar Value
                        RESOLUTION STATUS                     Number
                                                                             (In Millions)
 No management decision by 3/31/06                                0               $0
 Issued during reporting period                                   0               $0
   Total inventory this period                                    0               $0
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                       0               $0
 Allowed costs (not agreed to by management)                      0               $0
   Total Management Decisions This Reporting Period               0               $0
   Total Carried Over To Next Period                              0               $0




Table 2: Resolution Status of Reports With Recommended Funds To Be
Put To Better Use By Management


                                                                             Dollar Value
                        RESOLUTION STATUS                     Number
                                                                             (In Millions)
 No management decision by 3/31/06                               58            $1,099.7
 Issued during reporting period                                  17             $526.4
   Total inventory this period                                   75           $1,626.1
 Management decisions during the reporting period
 Agreed to by management                                         16             $84.2
 Not agreed to by management                                     0               $0
   Total Management Decisions This Reporting Period              16            $84.2
   Total Carried Over To Next Period                             59           1,541.9




                                                                          Appendix      •    29
Copies of this report are available to the public. Written requests should be sent to:

        Ofﬁce of the Inspector General (53B)

        Department of Veterans Affairs 

        810 Vermont Avenue, NW

        Washington, DC 20420


The report is also available on our website:
        http://www.va.gov/oig/53/semiann/reports.htm
For further information regarding VA OIG, you may call 202-565-8620.




Cover photo courtesy Department of Defense




   30    •
VA OIG Semiannual Report to Congress   September 30, 2006 - Vol. 54
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:            (800) 488-8244
                         (800) 488-VAIG
To FAX:                  (202) 565-7936

To Send
Correspondence:          Department of Veterans Affairs
                         Inspector General Hotline (53E)
                         P.O. Box 50410
                         Washington, DC 20091-0410

Internet Homepage:       http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:          vaoighotline@mail.va.gov




                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     April 1, 2006 - September 30, 2006
